No. 19-609
In the

Supreme Court of the United States
__________________
ERIN SHEPHERD AND TERRY REED,
Petitioners,
v.
ANGELA STUDDARD,
__________________

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

__________________

BRIEF IN OPPOSITION
__________________
DANIEL A. SEWARD
Counsel of Record
SEWARD LAW FIRM
4510 Chickasaw Road
Memphis, TN 38117
(901) 527-5500
sewardlawfirm@aol.com
Counsel for Respondent

December 12, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Petitioners, two Shelby County Sheriff’s Deputies
on July 7, 2016, shot Edmond Studdard, Deceased as
he stood and/or swaying in place in the middle of a
grassy area east of Northbound Big Orange Road at
approximately noon on a clear summer day in Shelby
County, Tennessee. Respondents fired five shots while
both were standing in the Southbound lane of Big
Orange Road at a distance of thirty four (34) feet from
Edmond Studdard, Deceased with no less than two
bullets striking Edmond Studdard as he held a
boxcutter handle without a razor blade to his own
throat. Edmond Studdard, Deceased at the time of the
shooting and immediately prior to in the presence of
Petitioners, never threatened to hurt anyone but
himself and had not made any movements towards
anyone with the “knife” or boxcutter handle. Edmond
Studdard died approximately two months after the
shooting from the bullet wounds that he suffered. On
Petitioner’s motion for summary judgment based upon
qualified immunity, the district court concluded that
genuine issues of material fact precluded it from
granting the motion. The Sixth Circuit affirmed in an
unanimous decision. The question presented is:
Whether this Court should review the Sixth
Circuit’s decision affirming the
district court’s
conclusion that genuine issues of fact preclude
summary judgment for petitioner.

ii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
STATEMENT OF ISSUE PRESENTED FOR
REVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
REASONS FOR GRANTING THE PETITION . . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

iii
TABLE OF AUTHORITIES
CASES
Bougess v. Mattingly,
482 F.3d 886 (6th Cir. 2007). . . . . . . . . . . . . . . . 22
Brosseau v. Haugen,
543 U.S. 194 (2004). . . . . . . . . . . . . . . . . . . . . . . 23
Brown v. Wayne Blanchard and Walworth County
Wisconsin, (No. 14-2808) (7th Cir. 2015) . . . . . . 31
Chappell v. City of Cleveland,
585 F.3d 901 (6th Cir. 2009). . . . . . . . . . . . . . . . 22
Ciminillo v. City of Cincinnati,
434 F.3d 461 (6th Cir. 2006). . . . . . . . . . . . . . . . 28
Duong v. Telford Borough,
186 F. App’x 214 (3d Cir. 2006) . . . . . . . . . . . . . 32
Eldridge v. City of Warren,
533 F. App’x 529 (6th Cir. 2013) . . . . . . . . . . . . 23
Glenn v. Washington County,
673 F.3d 864 (9th Cir. 2011). . . . . . . . . . . . . . . . 32
Graham v. Connor,
490 U.S. 386 (1989). . . . . . . . . . . . . . . . . . . . . . . 22
Hope v. Pelzer,
536 U.S. 730 (2002). . . . . . . . . . . . . . . . . . . . . . . 25
Kisela v. Hughes,
138 S. Ct. 1148 (2018). . . . . . . . . . . . . . . 22, 23, 33
Lopez v. City of Cleveland,
625 F. App’x 742 (6th Cir. 2015) . . . . . . . . . . . . 30

iv
Mercado v. City of Orlando,
407 F.3d 1152 (11th Cir. 2005). . . . . . . . . . . . . . 32
Mullins v. Cyranek,
805 F.3d 760 (6th Cir. 2015). . . . . . . . . . . . . 21, 24
Pitzer v. Tenorio,
802 F.3d 1160 (10th Cir. 2015). . . . . . . . . . . . . . 31
Russo v. City of Cincinnati,
953 F.2d 1036 (6th Cir. 1992). . . . . . . . . . . . 27, 28
Saucier v. Katz,
533 U.S. 194 (2001). . . . . . . . . . . . . . . . . . . . . . . 21
Scozzari v. Miedzianowski,
454 F. App’x 455 (6th Cir. 2012) . . . . . . . . . . . . 29
Sigley v. City of Parma Heights,
437 F.3d 527 (6th Cir. 2006). . . . . . . . . . . . . . . . 22
Sova v. City of Mt. Pleasant,
142 F.3d 898 (6th Cir. 1998). . . . . . . . . . . . . . . . 26
Stevens-Rucker v. City of Columbus, OH,
739 F. App’x 834 (6th Cir. 2018) . . . . . . . . . . . . 33
Walker v. City of Orem,
451 F.3d 1139 (10th Cir. 2006). . . . . . . . . . . . . . 31
Williams v. Indiana State Police Department,
(No. 142523) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Zuchel v. Spinharney,
890 F.2d 273 (10th Cir. 1989). . . . . . . . . . . . . . . 31
Zulock v. Shures,
441 F. App’x 294 (6th Cir. 2010) . . . . . . . . . . . . 29

v
CONSTITUTION
U.S. Const. amend. IV . . . . . . . . . . . . . . 21, 25, 27, 29

1
STATEMENT OF ISSUE
PRESENTED FOR REVIEW
Whether the Sixth Circuit of the United States
Court of Appeals correctly ruled that Respondent met
her burden of showing that Shepherd and Reed were
not entitled to qualified immunity in light of controlling
law in the shooting of Eddie Studdard.
For purposes of this Appeal, Petitioner Erin
Shepherd will be referred to as “Shepherd”, Petitioner
Terry Reed will be referred to as “Reed”, Respondent
Angela Studdard will be referred to as Plaintiff and/or
Respondent and/or Angela Studdard and Edmond
Studdard will be referred to as “Edmond”, “Studdard”
and/or “Eddie Studdard”.
INTRODUCTION
On the morning of July 7, 2016, “Eddie Studdard”
was 46 years old, married to Respondent Angela
Studdard and living with his wife and two daughters in
Shelby County, Tennessee. (Medical Record/TBI File,
RE 132, Page ID# 2008) Eddie Studdard was part
owner of A&H Ironworks, LLC, a business which was
located on private property on Big Orange Road in
Shelby County, Tennessee that made custom
ornamental fencing and railing along with his father
Hollis Studdard, Sr. and his brother, Ricky Studdard.
Eddie Studdard had been suffering from some type
of lung condition over the previous two years and had
been dealing with a lot of pain and his health insurance
had lapsed at some point prior to that date and Eddie
asked his father that morning to borrow some money so
that he could go to his doctor’s appointment that day.

2
When Hollis Studdard, Sr. refused, Eddie became upset
and apparently suffered some type of emotional or
mental issue and he drove his pick up truck into the
back of his father’s unoccupied corvette which was
located on the driveway of the private property owned
by A&H Ironworks and then to abandon his truck, to
slit his own wrists in the bathroom of A&H Ironworks
and then start walking northbound on the right side of
Big Orange Road away from A&H Ironworks. There
was no evidence of a physical fight between Eddie and
his father. All of this information was unknown to
Appellants Shepherd and Reed and the other deputies
on the scene on Big Orange Road at the time that
Eddie Studdard was shot by Shepherd and Reed.
It is undisputed that Shepherd and Reed fired a
total of five times with their 40 caliber service pistols
at Studdard that day (Reed fired two times and
Shepherd fired three times) with one and/or two bullets
striking Eddie’s arm and one bullet entering the right
side of Eddie’s neck, severing his spine and rendering
him a quadriplegic from July 7, 2016, where he was
transported by ambulance and was hospitalized and
underwent multiple surgeries and medical procedures
at Regional One Hospital in Memphis, Tennessee, up
to the date of his premature death in the Hospital on
September 4, 2016, caused by the gunshot wounds of
July 7, 2016. It is undisputed that Eddie suffered
greatly over this two month period before his death.
(Medical Records, RE 132, Page ID# 2005-2006)
Photographs of Eddie Studdard prior to the
shooting and after the shooting while hospitalized at
Regional One Hospital can be found at Affidavit of

3
Angela Studdard, RE 167, PageID# 167-1, Page
ID# 2696-2699, RE 168-1, PageID# 2703-2704) The
post shooting photographs clearly and undisputedly
show the extreme pain and suffering that Eddie
Studdard endured after was shot.
There is no proof that Eddie had any prior history
of mental illness or psychiatric diagnosis and/or
treatment prior to July 7, 2016. After the shooting,
while Eddie was an admitted patient at Regional One
Hospital and prior to his death, he remembered getting
into the disagreement with his father, slitting his
wrists and deputies being on Big Orange Road but did
not know why they shot him. (Medical Records of
Studdard/TBI File, RE 132, PageID# 56, 2008-2009)
The shooting of Eddie by Shepherd and Reed,
viewed in the light most favorable to Angela Studdard
and/or Eddie Studdard was objectively unreasonable
considering and viewing the facts taken in the light
most favorable to Respondent immediately before and
at the time of the shooting.
STATEMENT OF THE CASE
On July 7, 2016, Deputy Sheriff Kyle Lane who was
employed by the Shelby County Sheriff’s Department
and was dispatched by radio to Big Orange Road in
Shelby County, Tennessee to fill out a report
concerning a male white who was involved in an
accident and hit another vehicle on private property
located at A&H Ironworks. The male white had left the
scene of the accident but there were no reports of
personal injury but only property damage to the
vehicle. (Deposition of Kyle Lane, RE 96-1, PageID#

4
981-982, 987) As Deputy Lane was traveling
southbound on Big Orange Road and approaching the
address of A&H Ironworks, he saw and passed a male
white who was walking northbound on Big Orange
Road. Deputy Lane testified that he had no reason to
believe that Eddie Studdard was the person involved in
the hit and run. It was around noon on a clear July
day. Deputy Lane was informed by an adult male at
the A&H address that the individual walking
northbound on Big Orange Road, later identified as
Edmond “Eddie” Studdard, Deceased, had slit his own
wrists. (Lane Deposition, RE 96-1, PageID# 989,995)
Having just learned of this information and not
knowing any other information and having no
knowledge that Eddie Studdard committed any crime
or whether Studdard was even involved in the hit and
run, Deputy Lane turned his motorcycle around on Big
Orange road and began to follow Eddie Studdard as he
walked and/or ran northbound on Big Orange Road to
investigate the situation. (Lane Deposition, RE 96-1,
PageID# 994, 1004-1005)
As Deputy Lane approached Eddie Studdard slowly
from behind on his motorcycle as they were traveling
northbound on Big Orange Road, Deputy Lane saw
blood on both of Eddie Studdards’ wrists and he knew
at that moment that Eddie Studdard had cut his own
wrists. (Lane Deposition, RE 96-1, PageID# 994- 995)
Deputy Lane alleges that Eddie Studdard was
nonresponsive to his verbal commands and that Eddie
Studdard opened his hand and showed him what
Deputy Lane believed to be a knife. It was at that
moment that Deputy Lane told dispatch that “both

5
wrists of respondent are slit”. (Lane Deposition, RE 961, PageID# 1007) and requested back up from the
Shelby County Sheriff’s Department and continued to
follow Eddie Studdard at a safe distance as he
continued to walk northbound on Big Orange Road.
(Lane Deposition, RE 96-1, PageID# 1004, 1007)
As Deputy Lane continued to follow him northbound
on Big Orange Road, Deputy Lane could tell that Eddie
Studdard appeared in distress and Lane notified
Sheriff Department’s dispatch that the male white,
later identified as Eddie Studdard was not resisting,
just walking around with knife in his hand. (Lane
Deposition, RE 96-1, PageID# 1005-1006) Deputy Lane
said that after Eddie Studdard showed him the knife,
that Eddie Studdard did not act aggressive and never
tried to stab him, never threatened him verbally and
never tried to knock him of his motorcycle as Eddie
Studdard continued to walk and/or run northbound on
Big Orange Road. (Lane Deposition, RE 96-1, PageID
1004) Deputy Lane continued to follow Eddie Studdard
as he walked northbound on Big Orange Road and that
he followed him for three to five minutes covering
approximately ¾ of a mile. (Lane Deposition, RE 96-1,
PageID# 1011, 1015) During this time frame, Eddie
Studdard never tried to stab, cut or point the knife at
Deputy Lane or threaten him. (Lane Deposition, RE 961, PageID# 1011-1013, 1015) Deputy Lane said that
Eddie Studdard had a “decent amount of blood” on both
of his wrists (Lane Deposition, RE 96-1, PageID# 1014)
Deputy Lane said that Eddie Studdard looked in
“distress”. (Lane Deposition, RE 96-1, PageID# 1013)
PageID 1726-27)

6
As Eddie Studdard continued to walk northbound
on Big Orange Road with Deputy Lane following him,
Deputy Lane testified that he followed him on his
motorcycle for three to five minutes before the other
deputies showed up. (Lane Deposition, RE 96-1,
PageID# 1015) Immediately prior to the other deputies
arriving on Big Orange Road, Deputy Lane testified
that Eddie Studdard did not represent an immediate
threat of death to Deputy Lane or anybody else. (Lane
Deposition, RE 96-1, PageID# 1016) During this time,
Deputy Lane testified that it appeared to him that
Eddie Studdard had emotional issues and was trying to
kill himself. (Lane Deposition, RE 96-1, PageID# 10151016)
As Eddie Studdard and Deputy Lane approached
and are getting closer to the intersection of Macon
Road and Big Orange Road, Deputy Lane testified that
he saw three or four vehicles ahead and that the
County Sheriff’s Deputies arrived on Big Orange Road,
traveling in the opposite direction and parked their
vehicles on Big Orange Road, approximately one
hundred yards from the intersection of Macon Road.
(Lane Deposition, RE 96-1, PageID# 1018-1020) Deputy
Lane testified that Big Orange Road is a wide road
with single lanes of traffic for northbound and
southbound traffic on the road and that two solid
yellow lines run down the middle of Big Orange Road
separating northbound from southbound traffic on Big
Orange Road with a curb running parallel with the
road. (Lane Deposition, RE 96-1, PageID# 1020-1021)
Deputy Lane testified that on the east side of
northbound Big Orange Road, there is a grassy area
which runs from the curb to a wooden fence to the east

7
of Big Orange Road. (Lane Deposition, RE 96- 1,
PageID# 1021-1022)
Deputy Lane testified in his deposition that the
deputies that showed up on the scene, parked their
vehicles in the southbound lane of Big Orange Road.
(Lane Deposition, RE 96-2, PageID# 1025) There were
no obstructions on Big Orange Road that prevented
Deputy Lane from clearly seeing the other deputies
who he later identifies as Defendant Shepherd,
Defendant Reed and Deputy Pair. (Lane Deposition,
RE 96-2, PageID# 1025) At the time that the other
deputies arrived on the scene, Eddie Studdard walked
away from all of the deputies and into the grassy area
on the east side of northbound Big Orange Road and he
backed up and had his back to the fence. (Lane
Deposition, RE 96-2, PageID#1029) When Eddie
Studdard first stopped, Deputy Lane testified that
Eddie Studdard began to sway in place in the grassy
area while facing west. (Lane Deposition, RE 96-2,
PageID# 1030-1031) At this time, Deputy Lane
testified that the “knife” was down by his side and that
Eddie Studdard was in the grassy area and not
pointing the “knife” at Lane. (Lane Deposition, RE 962, PageID# 1031-1032)
Plaintiff’s credible and admissible proof is that
Eddie Studdard was standing in the grassy area and
Deputies Reed, Shepherd, Pair and Deputy Lane had
Eddie Studdard surrounded and pinned in with the
wooden fence behind him while Eddie Studdard was
standing in the grassy area. (Shepherd Deposition, 136139) (Lane Deposition, RE 96-3, PageID# 1098-1099) It
is undisputed that all four deputies had their pistols

8
drawn and aimed at Eddie Studdard. Defendant
Shepherd testified in her deposition that Eddie
Studdard was standing in the grassy area midway
between the Big Orange Road and the fence. (Shepherd
Deposition, RE 106, PageID# 1454-1455)
Eddie Studdard was standing in the grassy area
and swaying in place and he continued to hold the
“knife” down and was not charging anybody.
(Lane Deposition, RE 96-2, PageID# 1039-1040) Deputy
Lane testified that one deputy shouted put the knife
down or I’m going to shoot. (Lane Deposition, RE 96-2,
PageID# 1037) Deputy Lane testified that after this
happened, Eddie Studdard raised the knife to his own
throat in a slicing position on the right side of his neck.
(Lane Deposition, RE 96-2, PageID# 1037-1039) Deputy
Lane testified that his was the first and only time
that Eddie Studdard raised the “knife” other than the
initial time that Studdard had shown it to Deputy Lane
at the very beginning of when Lane began to follow
him. Deputy Lane testified that almost immediately
after Eddie Studdard raised the knife to his own
throat, Eddie Studdard was shot. (Lane Deposition, RE
96-2, PageID# 1039) It is undisputed that Defendants
Lane and Shepherd both fired multiple shots at Eddie
Studdard and that he was hit in the arm and neck
and/or throat by two or three of the five bullets and
mortally wounded, rendered a quadriplegic and
subsequently died of his injuries in the hospital on
September 4, 2016, approximately two months after
the shooting.
Defendant Shepherd gave a sworn declaration and
testified that Eddie Studdard never said anything

9
throughout the whole ordeal. (Shepherd Deposition,
RE 106, PageID# 1466) (Statement of Shepherd, RE
132-1, PageID# 2098) Defendant Shepherd testified
that at the time that Eddie Studdard raised the knife
to his own throat, she believed he was going to cut his
own throat. (Shepherd Deposition, RE Page ID# 14661477) Defendant Shepherd further testified that once
Eddie Studdard put the knife to his own throat, that he
never moved it away from his throat until the time
that he was shot. Defendant Shepherd testified that
Eddie Studdard never left the grassy area. (Shepherd
Deposition, RE 106, PageID# 1470) Defendant
Shepherd further testified that Eddie Studdard never
made a stabbing or lunging motion toward her or
anyone else prior to being shot. (Shepherd Deposition,
RE 106, PageID# 1469)
Deputy Lane testified that at the time that the
shots were fired that he was not in fear for his life.
(Lane Deposition, RE 96-2, PageID# 1041) Deputy
Lane testified in his deposition that prior to Eddie
Studdard being shot, that he was not charging
anybody. (Lane Deposition, RE 96-2, PageID# 1040)
Deputy Lane testified that he did not know why
Shepherd or Reed fired shots at Eddie Studdard. (Lane
Deposition, RE 96-2, PageID# 1042) Deputy Lane
testified that Deputy Pair did not fire and neither did
he. (Lane Deposition, RE 96- 2, PageID# 1042) At the
time that the shots were fired, Deputy Lane testified
that he felt no imminent threat to himself or anyone
else. (Lane Deposition, RE 96-2, PageID# 1044)
Lane further testified that Eddie Studdard never
pointed the knife at Lane or any of the other deputies.

10
Lane testified that Eddie Studdard never waived the
knife around, never ran towards Lane, never ran
towards Shepherd or Reed with a knife in his hands,
never ran towards Pair. (Lane Deposition, RE 96-2,
PageID# 1056) Eddie Studdard dropped straight to the
ground when he was shot and fell on his back. (Lane
Deposition, RE 96-2, PageID# 1057-1058) Deputy Lane
does not remember if they moved Eddie Studdard after
he was shot.
Deputy Lane testified that “at the time of the
shooting”, that Eddie Studdard was pinned in and
had not threatened anybody, was not an
imminent threat of death or serious bodily injury
to anybody except himself and that Lane did not
feel threatened at that point and time. (Lane
Deposition, RE 96-3, RE PageID# 1099-1101) Up to the
point where Eddie Studdard was shot, he had not
attacked anybody. (Lane Deposition, RE 96-3, PageID#
1106) Deputy Lane did not shoot. (Lane Deposition, RE
96-3, PageID# 1106-1107) Lane had an unobstructed
view of the scene on Big Orange Road before and at
the time of the shooting. (Lane Deposition, RE 96-3,
PageID# 1111)
Deputy Lane testified that Eddie Studdard never
walked towards anybody with a knife or whatever
he had in his hands prior to the shooting. (Lane
Deposition, RE 96-3, PageID# 1110) Further, Eddie
Studdard never walked towards anybody while he
had a knife to his own throat. (Lane Deposition, RE 963, PageID# 1110) Deputy Kyle Lane testified that
Eddie Studdard fell in the exact spot he was standing
and that he dropped to the ground. (Lane Deposition,

11
RE 96-4, PageID# 1144) Deputy Lane does not know
the exact area where Eddie Studdard fell after being
shot. (Lane Deposition, RE 96-4, PageID# 1165) See
Exhibit to 16 Deputy Lane’s testimony regarding the
area where Eddie Studdard fell after the was shot in
the grassy area. Lane Deposition, RE 96-4, PageID#
1165, RE 96-5, PageID# 1216)
At the time that Petitioners Reed and
Shepherd fired their weapons at Eddie Studdard,
Deputy Lane testified that Eddie Studdard was not a
fleeing felon, not threatening imminent serious
bodily injury to anyone aside from himself. (Lane
Deposition, RE 96-4, PageID# 1176) Deputy Lane
testified at this time there was nothing obstructing his
or Reed’s or Shepherd’s view of Eddie Studdard. (Lane
Deposition, RE 96-4, PageID# 1177) The shooting
occurred in an open space during the middle of the day.
(Lane Deposition, RE 96-4, PageID# 1176)
Deputy Lane testified that if a person is threatening
suicide or harm to themselves, deadly force is never an
option for a Shelby County Sheriff’s Deputy. (Lane
Deposition, RE 96-4, PageID# 1177) Deputy Lane
testified that he would never shoot someone to prevent
them from committing suicide and to do so would be a
violation of Shelby County Sheriff Department’s deadly
force policy. (Lane Deposition, RE 96-4, PageID# 11781179)
Deputy Lane testified that at the time of the
shooting of Eddie Studdard, there was no doubt
that Eddie Studdard was suffering some type of
mental crisis or illness or disorder.

12
Deputy Lane further testified that at the entire
time that Eddie Studdard was in the grassy area that
he never pointed a knife at anyone and he never
threatened anybody with a knife, never going
towards them and never pointing the knife at
them. (Lane Deposition, RE 96-4, PageID# 1181)
Deputy Lane testified that at the time of the shooting
that he could have waited five more hours as long
as Eddie Studdard continued not to be
aggressive. (Lane Deposition, RE 96-4, PageID# 1183)
Deputy Lane testified under oath that Eddie
Studdard was not advancing towards anybody
before the shots were fired or at the time the shots
were fired. (Lane Deposition, RE 96-4, PageID# 1183)
Deputy Lane further testified that Eddie Studdard
never attacked anybody before the shots were fired.
(Lane Deposition, RE 96-4, PageID# 1183)
Towards the end of the deposition of Kyle Lane
conducted by Respondent’s counsel, the following
questions and answers were provided, recorded and
video taped:
Question by Attorney Seward: “I want you to
stand up and show the videographer how he
(Studdard) was moving. Was he moving toward
people or swaying?”
Answer by Deputy Kyle Lane: “He was
swaying like this (demonstrating).” …
Question by Attorney Seward: “Okay. Was
he advancing toward anybody?”

13
Answer by Deputy Kyle Lane: “Not that I
saw. No, sir”.
Question by Attorney Seward: “Okay. Did he
attack anybody with whatever was in his hand?”
Answer by Deputy Kyle Lane: “No, sir”.
Question by Attorney Seward: “Prior to being
shot?”
Answer by Deputy Kyle Lane: “No, sir.”
Question by Attorney Seward: “Never?”
Answer by Deputy Kyle Lane: “No, Sir.”
(Deposition of Kyle Lane, RE 96-4, PageID# 1183)
Eddie Studdard was never charged with any crime
by any law enforcement or the Shelby County Sheriff’s
Department for anything or any act that took place on
July 7, 2016.
Deputy Abdullah testified under oath that at the
time that Deputy Shepherd and Deputy Reed
fired their pistols and shot Eddie Studdard,
Deputies Pair and Defendant Shepherd and
Defendant Reed were all standing in the
southbound lane of Big Orange Road and that
Abdullah was less than 50 yards away heading
southbound on foot on Big Orange Road. (Deposition of
Abdullah, RE 104, PageID# 1409 and RE 104, PageID#
1418, Page 1407) The last time that Abdullah saw
Studdard before the shooting, Studdard was in the
grassy area and never came back onto Big Orange
Road. (Deposition of Abdullah, RE 104, PageID#

14
1408,1412) Shepherd, Reed and Pair were all in the
southbound lane of Big Orange Road with their pistols
drawn and aimed at Studdard prior to the shooting.
(Deposition of Abdullah, RE 104, PageID#1410) Deputy
Abdullah testified that he did not feel threatened by
Studdard and that Abdullah never pulled his gun and
did not aim it at Studdard. (Deposition of Abdullah, RE
104, PageID# 1413, 1411)
EMS Natalie Stewart provided emergency medical
care to Eddie Studdard on July 7, 2016 after he was
shot and she did so in the grassy where Eddie
Studdard’s body was located on the ground in the
grassy area after the shooting. EMS Natalie Stewart
provide emergency medical care to Eddie Studdard at
the scene and while in transport to Regional One
Medical Center. EMS Natalie Stewart executed a
Sworn Declaration that Eddie Studdard’s body was in
the grassy area when she arrived and administered
medical care to Studdard and she states in her Sworn
Declaration that Eddie Studdard’s body was over
ten (10) feet east of the curb of northbound Big
Orange Road when she arrived to administer
emergency medical care. (Sworn Declaration of
Natalie Stewart, RE 95, PageID# 920-921)
Jason Cunningham executed a Sworn Declaration
that he was familiar with Big Orange Road and that he
worked at a gym located across the street from the
shooting of Eddie Studdard and that he was present
inside his employer’s building at the time of the
shooting of Eddie Studdard. Jason Cunningham states
in his Sworn Declaration that “The distance from the
curb on the eastern side of Northbound Big Orange

15
Road to the first yellow solid line in the middle of Big
Orange Road is over twenty-four (24) feet. He further
declares that the distance from the curb on the eastern
side of Northbound Big Orange Road to the curb and/or
driveway located on the western side of Southbound
Big Orange Road is greater than forty-eight (48) feet.
He further declares that “the distance from the curb on
the eastern side of Northbound Big Orange Road across
the grassy area to the wooden fence that was located
there on July 7, 2916 is greater than nineteen (19)
feet”. (Sworn Declaration of Jason Cunningham, RE 94,
PageID# 917-919)
If the distance from the middle of Big Orange Road
to the eastern edge and/or curb is greater than 24 feet
and Defendants Shepherd and Reed were standing in
the southbound lane of Big Orange Road at the time
that they shot Eddie Studdard who was in the grassy
area at the time of the shooting, Defendants Reed and
Shepherd shot Eddie Studdard at a minimum of 24 feet
and not 7 to 10 as they claim. This calculation of 24 feet
would not include any additional feet that Eddie
Studdard would have been in the grassy area on the
east side of Big Orange Road when he was shot, which
the Appellee has presented as ten (10) additional feet
for total of thirty-four (34) feet separating Reed
and Shepherd from Eddie Studdard when he was
shot.
Petitioner adopts Plaintiff’s Rule 26 Expert Report
of Jeffrey Noble herein as if stated in verbatim.
Petitioner adopts said report and said report’s citation
of the statements of fact and opinions of Jeffrey Noble.
(Rule 26 Expert Report of Jeffrey Noble, RE 99, Page

16
ID#1276-1305) Jeffrey Noble opines that “Based upon
the statements of Deputies Lane, Pair and Abdullah
and the physical evidence, Mr. Studdard was not an
imminent threat to either Deputy Shepherd or
Deputy Reed. Mr. Studdard was not moving
toward the deputies at the moment that deadly force
was used, he had the knife held at his own neck, and if
Deputies Shepherd and Reed were in the southbound
lane of traffic and Mr. Studdard was in the middle of
the grassy area, Mr. Studdard would have been at
least 34 feet away from the officers at the
moment of the shooting. Thus, the use of deadly
force would not be objectively reasonable or
consistent with generally accepted police
practices.” (Noble Rule 26 Expert Report, RE 99,
PageID 1292)
Petitioners’ Rule 26 Expert Richard Lichten states
and opines in his Rule 26 Expert Disclosure that:
Mr. Noble and I do agree if the decedent
was in fact standing still and had not made
a move at all toward the shooter deputies,
the shooting would be unjustified.
(Rule 26 Expert Disclosure of Richard Lichten, RE 8910, PageID#753)
Further, Petitioners’ Rule 26 Expert Richard
Lichten testified under oath in his deposition that
opines that:
“If you accept that the decedent was standing
still in the middle of the grass area and if you
accept that the shooter deputies were in the
southbound lane as Mr. Noble states, the Mr.

17
Noble’s math makes sense and he’d be right
…And the same would be true, as you just said,
if it was 34 feet or 7 feet. If that was true, if Mr.
Studdard was standing still and not acting
aggressively.”
(Deposition of Richard Lichten, RE 98, PageID#1272)
Defendants’ Rule 26 Expert also testified during his
deposition that the “ 21 foot Rule” is not a rule per
se …The 21 foot rule isn’t necessarily a rule,
although that’s what it’s called.” (Deposition of
Richard Lichten, RE 98, PageID# 1263)
During Erin Shepherd’s discovery deposition,
Petitioner’s counsel asked Shepherd the following:
Question by Attorney Seward: …In this case,
did you feel that Eddie Studdard was an
eminent (imminent) or immediate threat to
cause you serious bodily injury or death at the
time you pulled the trigger?
Answer by Shepherd: Yes.
Question by Attorney Seward: Why?
Answer by Shepherd:
Because we are
trained on a 25 foot rule in relation to
bladed weapons. That someone within the
25 feet can get to us and injure us before
we can draw out weapons and pull the
trigger. And so we’re not supposed to –
we’re trained not to let someone in that 25
foot threshold who has a weapon, rather

18
it’s to their throat, out at us, or anything
like that.
Question by Attorney Seward: Okay. You
called it the 25 foot rule. Is that – a written rule
that Shelby County Sheriff’s Department has
adopted?
Response by Shepherd: As far as I know,
yes. The research has been done on it. It used
to be 21 feet but I believe they’ve extended
it in the past few years to 25 feet. … I don’t
know about the policy. I know that that’s
what we’re trained.
(Deposition of Erin Shepherd, ECF No. 105, 1-3,
deposition pages 173-175)1
The Tennessee Bureau of Investigation conducted
an investigation into the shooting of Edmond Studdard
and as part of that investigation approximately two

1

After the shooting in this cause and after the close of discovery,
Petitioner’s counsel learned after reading the complaint to her
pending lawsuit against Shelby County, Tennessee and the Shelby
County Sheriff’s Department, that Appellant Erin Shepherd was
relieved of duty in May of 2018. Shepherd received a letter from
Shelby County Sheriff’s Office advising that it had been
determined that she cannot perform the essential job functions of
a Sheriff Patrol Officer as required and was therefore relieved of
duty without pay. (Shepherd’s Complaint against Shelby County,
et al. Appellant Shepherd now alleges that she was wrongfully
terminated as a Sheriff’s Deputy on September 6, 2018. (Complaint
of Appellant Erin Shepherd vs. Shelby County, RE 156-1, Page ID#
2601-2620 The District Court did not have knowledge of this
information or consider it at the time of ruling on the summary
judgment motion.

19
hundred photographs were taken by the TBI after the
shooting on July 7, 2016. The photographs are part of
the record in this cause and provide relevant evidence
and information regarding the scene of the shooting on
Big Orange Road. TBI Photographs of Big Orange
Road, RE 135-1, PageID# 2325 through 152-37, Page
ID# 2540.
The facts in this appeal are undisputed that
Studdard did not have a gun but instead was holding
a box cutter handle without a razor blade in it and
not a knife or bladed weapon. The possession of a
knife and/or pocket knife in public is not a crime in the
State of Tennessee. Eddie was not advancing, walking
or moving towards anyone but standing still and/or
swaying in place in the grassy area east of northbound
Big Orange Road while being at least 34 feet away from
Shepherd, Reed and Pair, with all three standing in the
southbound lane of Big Orange Road at the time of the
shooting.
Eddie was more than 30 feet from Deputy Lane at
the time that Shepherd and Reed shot him Eddie was
not moving towards, walking towards, approaching,
running, attacking or charging towards Shepherd and
Reed or anyone else but was standing still and/or
swaying in place in the grassy area on the east side
of northbound Big Orange Road the entire time that
Shepherd, Reed, Pair and Lane had their guns pointed
at him, up to the time that Shepherd and Reed shot
Eddie Studdard. There is admissible proof that
Studdard never verbally threatened Shepherd, Reed,
Pair, Lane or anyone else on the scene prior to and/or
at the time that Eddie was shot. Shepherd and Reed

20
had no information that Eddie had committed a crime
of any type. Eddie was not a fleeing felon and he was
on foot, surrounded by the Shepherd, Reed, Pair and
Lane at the time that he was shot. Eddie never pointed
the boxcutter handle which did not have a razor blade
in it at anyone except to put it to his own throat at the
time that he was shot. Eddie was shot around noon on
July 7, 2016 while standing the grassy area which is
east side of northbound traffic on Big Orange Road.
Shepherd, Reed, Pair and Lane had approached
Eddie Studdard and had Eddie boxed in with a wooden
fence to Eddie’s back. It was a hot summer day on July
7, 2016 with no obstructions on or near Big Orange
Road that would prevent Deputy Lane from seeing of
the events as they unfolded on Big Orange Road prior
to and at the time of the shooting of Studdard. There
was plenty of room for Shepherd and Reed to back up
and/or escape. Reed, Shepherd, Pair and Lane all had
their 40 caliber pistols pointed at Eddie immediately
before and at the time that Eddie was shot.
There was no split second decision to be made as
Lane stated in his deposition when he testified that he
did not know why Shepherd and Reed fired when they
did and that he could have stayed there on Big Orange
Road with Eddie surrounded for as much time as was
needed.

21
REASONS FOR DENYING THE PETITION
I.

The Court of Appeals agree on the test
applicable to the reasonableness of an officer’s
use of deadly force under the Fourth
Amendment and have reached consistent
results.

II.

The Sixth Circuit correctly applied this Court's
Fourth Amendment jurisprudence.

III.

The Fourth Amendment violation was clearly
established.

IV.

This case does not present an appropriate
vehicle for review because material issues of fact
remain to be resolved.

The Courts apply a two-prong test and inquire
whether (1) whether the facts, taken in the light most
favorable to the party asserting the injury, show the
that the officer’s conduct violated a constitutional right
and (2) whether the right violated was clearly
established such that “a reasonable official would
understand that what he is doing violates that right.
Saucier v. Katz, 533 U.S. 194, 201-02 (2001) It is black
letter law that individuals have a clearly established
right not to be shot absent a probable cause belief that
that individual poses a threat of serious physical harm.
Mullins v. Cyranek, 805 F.3d 760, 765 (6th Cir. 2015)
Further, just because the Courts must look at the
circumstances through the eyes of a reasonable officer
does not mean that the Courts must accept the officer’s
subjective view of the facts when making the
assessment. Rather, the Courts must conduct the
reasonable officer analysis using the facts in the in the

22
light most favorable to the plaintiff. Bougess v.
Mattingly, 482 F.3d 886, 887-889 (6th Cir. 2007).
Excessive force claims are analyzed under an
objective reasonableness standard. Graham v. Connor,
490 U.S. 386, 397 (1989) The Courts consider the facts
and circumstances of each case, including the severity
of the crime at issue; whether the suspect posed an
immediate threat to the safety of the officers or others;
and whether the suspect was actively resisting arrest
or attempting to evade arrest by flight. Sigley v. City of
Parma Heights, 437 F.3d 527, 534 (6th Cir. 2006) The
ultimate inquiry must always be whether the totality
of the circumstances justified the use of force. Mullins
v. Cyranek, 805 F.3d 760 (6th Cir. 2015) “In excessive
force cases, the threat factor is a ‘minimum
requirement for the use of deadly force,’ meaning
that deadly force ‘may be used only if the officer has
probable cause to believe that the suspect poses a
threat of severe physical harm.” Mullins v. Cyranek,
805 F.3d 760, 766 (6th Cir. 2015) Further, the Plaintiff
must show that the constitutional right was clearly
established in a ‘particularized sense,’ such that a
reasonable officer confronted with the same or similar
situation would have known that using deadly force
under those circumstances would violate that right.
Chappell v. City of Cleveland, 585 F.3d 901, 907 (6th
Cir. 2009) Consonant with that requirement, the
United States Supreme Court recently reminded lower
courts “not to define clearly established law at a high
level of generality.” Kisela v. Hughes, 138 S. Ct. 1148,
1152 (2018) In determining whether an official’s
conduct violates a clearly established constitutional
right of which a reasonable person would have known,

23
the focus is on whether the official had fair notice that
their conduct was unlawful, with the reasonableness
being judged under the law at time that the conduct
took place. Brosseau v. Haugen, 543 U.S. 194, 198
(2004)
The United States Supreme Court in Kisela
reaffirmed that “this Court’s caselaw does not require
a case directly on point for a right to be clearly
established, existing precedent must have placed the
statutory or constitutional question beyond debate.”
Kisela, 138 S. Ct. at 1152.
CLEARLY ESTABLISHED LAW
In this case, Eddie Studdard was never charged
with any crime. Further, Eddie Studdard was not
actively resisting arrest. Eddie Studdard’s conduct did
not rise to the level of active resistance. The Sixth
Circuit Court of Appeals has held that mere
noncompliance is not active resistance. Eldridge v. City
of Warren, 533 F. App’x 529, 535 (6th Cir. 2013)
Further, Eddie was not attempting to flee nor was he
a fleeing felon. Just the opposite, Eddie was
surrounded and boxed in a semi circle in by the four
deputies with the wooden fence to his back. He wasn’t
going anywhere and he did not try to go anywhere.
Shepherd, Reed and the other deputies on the scene
had it under control in that there was no reasonable
threat of escape or flight by Eddie Studdard prior to
being shot. The main issue to be resolved is whether
Eddie Studdard posed an imminent threat of serious
bodily harm to Shepherd and/or Reed or anyone else on
the scene. In excessive force cases, the threat factor is
‘a minimum requirement for the use of deadly force,

24
meaning deadly force may only be used if the officer
has probable cause to believe that the suspect poses a
threat of severe physical harm. Mullins, 805 F.3d at
766.
In this case, the Plaintiff has presented admissible
material evidence to show that Eddie Studdard was
never verbally threatening anyone, never moving
and/or walking towards, running towards or
attempting to attack Defendant Shepherd, Defendant
Reed or anybody else in the area of Big Orange Road
through the sworn testimony of Deputy Kyle Lane.
Further, Plaintiff has presented admissible evidence
that Deputy Reed and Deputy Shepherd were 34 feet or
more away from Eddie Studdard when they shot him.
Plaintiff’s Rule 26 Expert Jeffrey Nobles opines that
the shooting was a violation of police practices by
Defendant Shepherd and Defendant Reed. Defendants’
Rule 26 Expert Richard Lichten agrees that the
shooting was unjustified and a violation of police
practices if Eddie Studdard, at the time that he was
shot, was thirty-four (34) feet away from Reed and
Shepherd and standing still and not moving towards
Defendant Reed or Deputy Shepherd or anyone else at
the time that he was shot.
There is ample admissible evidence in the record of
this cause to present a disputed issue of material fact
on the issue of whether Eddie Studdard was a threat to
anyone except himself, there is admissible facts that
Eddie Studdard was not moving towards or walking
towards Reed and Shepherd or anyone else at the time
that he was shot. Also, Appellee has presented
admissible facts and inferences that no one was in

25
danger and/or in striking distance of Eddie Studddard
regarding the distance that Eddie Studdard was from
Reed and Shepherd at the time that he was shot where
there is admissible evidence in the record that Eddie
Studdard was 34 feet or more away from Shepherd and
Reed when they shot him. Here there is ample
admissible evidence in the record upon which the trier
of fact could believe that Petitioners had no objectively
reasonable belief that Studdard posed an imminent
threat of serious bodily injury or harm to anyone except
himself.
Therefore, based upon the totality of the
circumstances known to Reed and Shepherd at the
time of the shooting, the use of deadly force was
objectively unreasonable and violated the Fourth
Amendment.
The second prong of the qualified immunity analysis
is to determine whether the right in question was
clearly established at the time of the violation. Hope v.
Pelzer, 536 U.S. 730, 739 (2002) Respondent asserts
that the state of the law at the time of the incident
provided notice and resulting fair warning to
Defendants Shepherd and Reed that their alleged
conduct was unconstitutional.
Respondent distinguishes prior decisions where a
suspect is holding what appears to be a knife or bladed
weapon and is advancing or moving towards someone
and along with the distance that an individual is from
someone who is holding a knife and/or bladed weapon.
In this instance, there is ample admissible proof that
Eddie Studdard was never moving towards and/or
attacking Shepherd and Reed or anybody else. Further,

26
there is ample admissible proof in the records that
Eddie Studdard was 34 feet or greater from the
Defendants Reed and Shepherd when they shot him
holding what they alleged was a knife but in reality,
could have been nothing more than a box cutter handle
without any razorblade in it. Regardless, Studdard
never made any type of movement towards Shepherd,
Reed or anyone else on the scene of Big Orange Road at
or before the time that Studdard was shot. Studdard
never threatened anyone verbally or physically.
The Plaintiff relies upon the following cases which
were in force prior to the shooting of Eddie Studdard on
July 7, 2016 to show that the constitutional right was
clearly established as an obvious case, existing
precedent that squarely governs the specific facts at
issue and that places the constitutional question
beyond debate and/or a consensus of cases of
persuasive authority that clearly establish the
constitutional right:
Sixth Circuit Precedent:
Respondent submits that adequate controlling
precedent is cited in Sova v. City of Mt. Pleasant, 142
F.3d 898 (6th Cir. 1998) In this published opinion and
controlling precedent from the Sixth Circuit, Thomas
Sova was suffering from depression who was armed
with two butcher knives and was harming himself with
the knives. In this case, Sova wanted the police to shoot
him. Sova was in his parents’ home and claims that the
police officers shot him before he ever walked out of the
kitchen door towards the officers. The Sixth Circuit
reaffirmed the precedent of the Court and ruled that
taking the facts in the light most favorable to Sova,

27
that if the jury determines that the police officer shot
Sova without a reasonable belief that he posed a
significant threat of death or serious bodily injury to
the officer or others, then the police officers actions of
shooting Sova were legally unreasonable under the
Fourth Amendment and therefore a violation of Sova’s
clearly established constitutional rights. Again, the
facts in this case are that Sova, like Studdard,
possessed a bladed weapon, with some type of mental
issue but was not advancing toward the officers when
he was shot. This precedent from the Sixth Circuit is
analogous to the facts and law concerning the Studdard
appeal and again reaffirms in the Sixth Circuit that a
person has a right not to be shot unless perceived to be
an immediate threat of death or serious bodily injury in
this factually similar case.
Russo v. City of Cincinnati, 953 F.2d 1036 (6th Cir.
1992) This published opinion states the clearly
established precedent from the Sixth Circuit which
states and reaffirms that a person has a constitutional
right not to be shot by the police unless that person is
perceived to pose a threat to the pursuing officers or
others. Id. at 1045. Russo is a factually similar case in
which a man, like Studdard, suspected of having
mental issues, who threatened to take his own life and
being armed with a bladed weapon and both were shot
by police. In that case, the Court held that considering
the evidence in the light most favorable to the
decedent, there would be a violation of the decedent’s
constitutional right not to be shot by police where the
decedent was shot while he was on the stairs some six
to seven steps below the officers and not advancing
towards the officers. The District Court ruled that this

28
case was established precedent in the Sixth Circuit and
that “Russo strongly supports that there is a clearly
established right that squarely governs the facts at
issue in this case.” Petitioner agrees with argument
made in Appellants’ brief that “Russo stands for the
proposition that shooting a suspect who “[never stood
up or charged towards officers” is unreasonable.”
Appellants’ brief at page 29 Considering the facts in
the light most favorable to the Petitioner, there is
admissible proof and/or inferences that Studdard was
standing still and/or swaying in place, more than 34
feet from Reed and Shepherd and that he never
threatened anyone verbally or physically and did not
make any movement towards anyone with a bladed
weapon. Studdard was holding the boxcutter to his own
throat and not moving towards anyone at the time that
he was shot nor was within striking distance with the
box cutter without a razor blade. Studdard was not a
threat of death or serious bodily injury or harm under
the totality of the circumstances. As a result, the
constitutional rights and contours are sufficiently
definite with this established precedent that would
have placed Shepherd and Reed on notice that a
reasonable official in their position would have known
that they were violating the constitutional rights of
Eddie Studdard when they shot him causing his severe
damages and premature death.
Ciminillo v. City of Cincinnati, 434 F.3d 461, 469
(6th Cir. 2006) This Sixth Circuit decision and
precedent, as recognized by the District Court in this
case, held that the police officer in that case was “on
notice that it is unreasonable to use beanbag
propellants against individuals who pose no threat to

29
officer safety” based on Ninth Circuit caselaw. Id and
District Court’s Order denying summary judgment in
this appeal.
Zulock v. Shures, 441 F. App’x 294 (6th Cir. 2010)
(Unpublished) In this case, the Court was again
reviewing an appeal where Zulock had been shot by a
police officer while holding a 10” steak knife in his
kitchen and had refused to drop it and backed or moved
away from the police officer while using verbally
abusive language. In that case, the police officer was
investigating a minor hit and run and had been trained
on the 21 foot rule as Shepherd in this appeal. The
Sixth Circuit held:
If Zulock was approximately twenty feet from
Officer Shures, and if Zulock did not brandish or
point the knife at Officer Shures, and if Zulock
was turning away from Officer Shures when he
was shot in the back of the shoulder, then a
reasonable jury could conclude that Officer
Shures used excessive force against Zulock in
violation of his Fourth Amendment rights.
Id.
In Zulock, the Sixth Circuit held that shooting a
man approximately 20 feet away holding a knife but
not attacking or moving towards anyone and/or
threatening the police or anyone else with death or
serious bodily injury is an obvious case of violating
the constitutional rights of Zulock under the totality of
the circumstances.
Scozzari v. Miedzianowski, 454 F. App’x 455 (6th
Cir. 2012) (Unpublished) The Sixth Circuit denied

30
qualified immunity to police officer who shot a suspect
who was alleged to have been wielding a knife and
hatchet over his head and whether the situation
required a split second decision to use lethal or deadly
force were issues for the jury to determine. Viewing the
evidence in the light most favorable to the plaintiff, the
Court denied qualified immunity to the police officer
because there were facts if believed by the jury that the
decedent was 15 to 20 feet from the officers when he
was shot, was not wielding a knife and hatchet over his
head in aggressive fashion and was not walking
towards the officers when he was shot. This case again
relies on Sixth Circuit precedent that has long
recognized that a person holding a bladed weapon, not
moving towards the police or anyone else, who is 15 to
20 feet away from police and others and the officer has
his gun aimed at the suspect, is not an imminent or
immediate threat of death or serious bodily injury to
the officer or others and shooting said suspect under
those factual circumstances is a violation of a clearly
established right with facts similar to the Studdard
appeal and providing resulting notice of constitutional
violation to Shepherd and Reed.
Lopez v. City of Cleveland, 625 F. App’x 742 (6th
Cir. 2015) (Unpublished) The Sixth Circuit again
denied qualified immunity to officer viewing the facts
in the light most favorable to the plaintiff, who shot a
suspect holding a knife but not moving towards
or attacking anyone. Footnotes to the decision stated
that the law was clearly established that officers
cannot use deadly force unless there was probable
cause to believe that the person posed a risk of serious
risk of harm to officers or others. Again, this fact

31
pattern is similar to the Studdard case where person is
shot by police but there is evidence that the person held
a bladed weapon, threatening to hurt only themselves
and not moving towards or attacking the police or
anyone else.
Other Circuits:
Pitzer v. Tenorio 802 F.3d 1160 (10th Cir. 2015)
cert. denied by U. S. Supreme Court April 18, 2016;
Tenth Circuit Court of Appeals denied qualified
immunity to police officer who shot a suspect who was
holding a bladed weapon to his own throat, made no
threatening gestures towards anyone and was shot
before he was within striking distance of the police or
anyone else, only harming himself and not charging
anyone. See Zuchel v. Spinharney, 890 F.2d 273 (10th
Cir. 1989); Tenth Circuit denied qualified immunity to
police officer who shot suspect with knife who was 1012 feet from officer and not charging or threatening
officer with knife.
Walker v. City of Orem, 451 F.3d 1139 (10th Cir.
2006) Tenth Circuit Court of Appeals recognized and
“specifically established that where an officer had
reason to believe that the suspect was holding a knife,
not a gun, and the suspect was not charging the officer
and had made no slicing or stabbing motions toward
him, that it was unreasonable for the officer to use
deadly force against the suspect”. Id. at 1160. See
Williams v. Indiana State Police Department, (No.
142523) Consolidated with Brown v. Wayne Blanchard
and Walworth County Wisconsin, (No. 14-2808) (7th
Cir. 2015) cert. denied to U.S. Supreme Court April 25,
2016. In Brown, the Seventh Circuit Court of Appeals

32
denied qualified immunity to police officer when
viewing the evidence in the light most favorable to the
Plaintiff, that the Plaintiff possessed a bladed weapon
or knife, was emotionally upset, refused to drop knife,
was threatening suicide but was not approaching or
threatening anyone with death or serious bodily injury
and was only passively resisting.
Glenn v. Washington County, 673 F.3d 864 (9th Cir.
2011) Glenn held pocket knife to his neck and
threatened to kill himself. Glenn had committed no
crime but was upset and destroying some of his
personal property. Glenn had no altercation with
anyone, was not threatening anyone, police were 6 to
12 feet from Glenn and he didn’t have any guns nor
was he wanted for a crime by the authorities. Like
Studdard, Glenn did not drop the pocket knife when
ordered but he never threatened anyone with death or
serious bodily injury except himself.
Mercado v. City of Orlando, 407 F.3d 1152 (11th
Cir. 2005) The 11th Circuit Court of Appeals denied
summary judgment to police officer on grounds of
qualified immunity where officer shot suspect who was
holding a knife and threatening only himself but
suspect was not moving towards or threatening death
or serious bodily injury to police or anyone else.
Duong v. Telford Borough, 186 F. App’x 214 (3d Cir.
2006) Third Circuit Court of Appeals held that viewing
the facts in the light most favorable to the Plaintiff,
that a constitutional violation may have taken place
when police shot Duong who was holding a knife but

33
not pointing it at police or anyone else nor was he
threatening anyone with death or serious bodily injury.
All cases cited predate the shooting of Eddie
Studdard in this cause and clearly establish and place
Defendant Shepherd and Defendant Reed on notice
that the shooting of Eddie Studdard when he was not
moving toward or advancing towards either and he was
at a distance of at least thirty-four (34) feet when he
was shot that he could not have constituted an
imminent threat to cause death or serious bodily injury
to anyone nor was there any reasonable or probable
cause that Eddie Studdard was an immediate threat to
cause serious bodily injury or death to either Shepherd
or Reed or anyone else.
Petitioners cannot rely upon the following cases to
define clearly established law. Kisela v. Hughes, 138
S. Ct. 1148 (2018) is a U.S. Supreme Court decision
that was rendered after July 7, 2016, the date of the
shooting in this case and therefore the facts and
ultimate ruling by the Supreme Court ruling are
respectfully not to be considered by this Court in
defining the relevant clearly established law at the
time.
Stevens-Rucker v. City of Columbus, OH 739
F. App’x 834 (6th Cir. 2018) was issued after July 7,
2016 and cannot be used to define the clearly
established law on that date.
The Sixth Circuit properly reviewed the caselaw
relevant to Petitioners’ Motion for Summary Judgment
and examined the legal position of both sides in
evaluating prior cases and ending the review by

34
applying the facts in the light most favorable to the
Petitioner to reach the legal conclusions. Petitioners’
argument has no merit that the Court of Appeals
considered the wrong set of operative facts in reaching
the legal conclusions. The Sixth Circuit considered the
Petitioner’s facts in the light viewed most favorably to
the Respondent and properly concluded that there is a
genuine issue of material fact in dispute that prevents
summary judgment.
CONCLUSION
The United States Court of Appeals for the Sixth
Circuit properly denied qualified immunity to
Shepherd and Reed because their conduct in shooting
a man holding a boxcutter without a razor and/or what
appeared to be a bladed weapon was not objectively
reasonable under the totality of the circumstances
facing the Petitioners on July 7, 2016. Shepherd and
Reed were on notice that shooting Eddie Studdard was
a violation of his established constitutional rights when
Studdard was shot when he was not moving towards
Shepherd and Reed or anyone else, holding the bladed
weapon to his own throat, not threatening anyone
except himself, made no verbal or physical threats to
anyone, was passively resisting at best, was not a
fleeing felon and was at least 34 feet away from
Shepherd and Reed and not within a distance to
anyone that Studdard would constitute a threat of
serious bodily injury to anybody. The totality of the
circumstances in this appeal presents an obvious case
involving the violation of Eddie Studdard’s clearly
established rights. Regardless, existing precedent in
the Sixth Circuit placed the constitutional question

35
beyond debate and the precedent cited by Respondent
squarely governs the issue in this appeal. Respondent
has further provided authority from other Circuits that
establishes a consensus of cases of persuasive authority
which clearly established Eddie Studdard’s
constitutional right to not be shot by Shepherd and
Reed. As a result, Respondent respectfully request that
this Honorable Court deny Shepherd and Reed’s
Petition in this cause and to remand this matter to the
District Court for jury trial.
Respectfully submitted,
Daniel A. Seward
Counsel of Record
Seward Law Firm
4510 Chickasaw Road
Memphis, TN 38117
(901) 527-5500
sewardlawfirm@aol.com
Counsel for Respondent
December 12, 2019

